IN THE SUPREME COURT OF THE UNITED STATES

Larry Bailey, Petitioner
v.
United States et, al., Respondent

On Petition for Writ of Certiorari to the United States Court of Appeals for the Sixth
Circuit

PETITION FOR WRIT OF CERTIORARI

Larry R. Bailey
Pro Se Litigant
181 Ben Bailey Road
London KY., 40744
Phone No. (606) 261-4761

received
AUG 16 2020

i

NOTE TO COURT
I am following the GUIDE FOR PROSPECTIVE INDIGENT PETITIONERS
FOR WRITS OF CERTIORARI provided by this court. I swear to file this petition to the
best of my abilities. I also swear that all legal citations are correct to the best of my
abilities. I am using public resources found on the internet and do not have access to any
law library or have financial resources to purchase legal material for my brief.
QUESTIONS PRESENTED
(Due to cognitive issues from a previous stroke lam addressing questions in
order that they appear in pleadings to limit confusion on my behalf)

D-

Whether the District Court erred when it determined that the Secretary of the

Interior can charge an amenity fee
2).

Whether the District Court erred by lifting its order for planned meeting after both

parties had met and fulfilled the order, and it was filed and, if it failed to follow the
Appellate Court instructions.
3).

Whether the agency wrongfully withheld public records, and agency council acted

unethically by withholding evidence used during litigation.
4).

Whether the District Court abused its discretion by denying discovery.

5).

Whether my argument that the Forest Service must maintain the light regardless

of its fee designation should have been consider an amended complaint.
LIST OF PARTIES
Defendants:

Tom Vilsack, Secretary of the U.S. Dept, of Agriculture
Tom Tidwell, U.S. Forest Service Chief
Dan Olsen, Forest Supervisor
Jason Nedlo, District Ranger

ii

Plaintiff:

Larry Bailey 181 Ben Bailey Road. London Kentucky, 40744.
CORPORATE DISCLOSER STATEMENT

There are no corporations connected to this case. I am a private citizen and the
Defendant is a government agency (U.S. Forest Service).

RELATED CASES
There are no relate cases.
TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED.

,1

LIST OF PARTIES

n

CORPORATE DISCLOSURE STATEMENT

ii

INDEX OF APPENDICES

n

TABLE OF AUTHORITIES

in

PETITION FOR WRIT

1

OPINIONS

1

JURISDICTION

1

STATEMENT OF THE CASE.

1

REASONS FOR GRANTING THE PETITION

10

CONCLUSION

16
INDEX OF APPENDICES

Appendix A: Court of Appeals order denying motion to reconsider. (3/24/2020)
Appendix B: Court of Appeals order affirming the District Court judgment. (2/28/2020)
Attached; District Court record 65-3 Motion for Summary Judgment.
Attached; District Court record 75 Reply to Response to Motion for
Summary Judgment.
ii

iii

Appendix C: District Court judgment and order dismissing the case. (4/30/2019)
Attached; Copies of email correspondence requesting evidence and
documents.
Appendix D: Appellate Court order denying appeal. (1/17/2019)
Appendix E: Appellate Court order for remand back to District Court. (6/27/2018)
Attached; Report of Parties Planned Meeting.
Attached; Email agreement to terms of meeting
Attached; Order striking order for planned meeting and report.
Appendix F: District Court order denying motion to reconsider. (9/26/2017)
Appendix G: District Court judgment and order dismissing case. (7/24/2017)

TABLE OF AUTHORITIES
Cases;
Southern Forest Watch v. Jewell,
No. 3: 13-CV-116,2015 WL 1457978, at *12 (E.D. Term. March 30,2015)

.3, 10

Sherer v. U.S. Forest Service,
727 F.Supp.2d 1080 (D. Colo. 2010)

4

Scherer v. U.S. Forest Service,
653 F.3d 1241 (10th Cir. 2011)

.4

Adams v. U.S. Forest Service,
671 F.3d 1138 (9th Cir. 2012).

.4,10

Motor Vehicle Mfrs. Ass’n of US., Inc. v. State Farm Mut....,
463 U.S. 29 (U.S. 1983)..........................................................

6,13

Eudey v. Central Intelligence Agency,
478 F.Supp. 1175 (D.C. Cir. 1979)....

7

Ettlingerv. F.B.I.,
596 F.Supp. 867 (D. Massl984),

7
iii

iv

Diamond v. F.B.I.,

548 F.Supp. 1158 (S.D.N.Y 1982)

7

Sierra Club v. Slater,
120 F.3d 623 (6th Cir. 1997),

8

Florida Power & Light Co. v. Lorion,
470 U.S. 729 (U.S. 1985)..................

8

Hanlinv. U.S.,
316 F.3d 1325 (U.S. 2003)

9

Hasselbrink v. Speelman,
246 F.2d 34 (6th Cir. 1957)

15

Carlyle v. U.S., Dept, ofthe Army,
674 F.2d 554 (6th Cir. 1982).........

15

Securities and Exchange Commission v. Rapp,
304 F.2d 786 (2nd Cir. 1962)..........................

15

Foman v. Davis,
371 U.S. 178 (U.S. 1962)

15

Statutes:
16 U.S.C§ 6801(10)

,3

16 U.S.C. § 6802(d)....

3,4

16 U.S;C. § 6802(e)(2)

,4

U.S.C. § 6802(g)(B)

,4

16 U.S.C. § 6802(f)(4)

,4

16 U.S.C. § 6802(g)(2)

.4

28 U.S.C.A. § 1291,1292

v

,6

FRCP Rule 26

7

16 USCA § 6806(c)(A)

8

16 USCA § 6807(a),

8
iv

V

U.S.C. § 6802(g)(B)

10, 15

FRCP Rule 11

12

CTA6 Rule 32.1

13

16 USCA § 6807(a)(3)

14

v

Page 1 of 17

PETITION FOR WRIT
Petitioner Larry Bailey respectfully petitions this court for a writ of certiorari to review
the judgements of the United States District Court for the Eastern District in London Kentucky
and the 6th Circuit Court of Appeals.
OPINIONS BELOW
Appellate Court ORDER Denying Rehearing (3/24/2020)

Not Published

Appellate Court ORDER Affirming District Court Judgment (2/28/2020)

Not Published

District Court JUDGMENT Dismissing Case (4/30/2019)

Not Published

Appellate Court ORDER Dismissing Appeal (1/17/2019)

Not Published

Appellate Court ORDER Remanding Case to District Court (6/27/2018)

Not Published

District Court ORDER Denying Rehearing (9/26/2017)

Not Published

District Court JUDGMENT Dismissing Case (7/24/2017)

Not Published

JURISDICTION
The judgment of the Appellate Court denying a timely filing for rehearing was entered on
March 24,2020 denying reconsideration of its final judgment. Due to the Covid-19 pandemic the
filing deadline was extended to 150 days, (ORDER LIST: 589 U.S.). All judgments from the
Appellate Court and District Court correspond to this same case and linked to the last order.
STATEMENT OF THE CASE
Brief History
This case began as a complaint for injunctive relief against the United States Forest
Service to replace a safety light and place a picnic table at the boat ramp at Marsh Branch on
Laurel Lake in Laurel County Kentucky. The light is part of the boat ramp which is an amenity

Page 2 of 17

that requires a paid fee to access. I paid the fee and made requests for the Forest Service to
replace the broken light at the ramp. After I made several requests over the next year and
promises from the agency to fix the light were unfulfilled, I filed for an injunction at the Federal
District Court for the Eastern District in London Kentucky. The Forest Service fixed the light,
but claimed it was not responsible for the light, therefore would not have to replace it when it
goes out again.
I argued that it had a legal obligation to maintain the light. The District Court agreed
with the agency and dismissed the case, [Appendix G]. I filed for a reconsideration which was
denied by the District Court, [Appendix F], I filed an appeal to the 6th Circuit Appellate Court
which remanded the case back to the District Court for further proceedings, [Appendix E]. On
remand the District Court issued an order for planned meeting and report [Appendix E, {see
order and email agreement}]. After the parties met, the court struck the order and allowed the
agency to proceed under the Administrative Procedure Act. I file an appeal questioning whether
the District Court correctly followed the Appellate Court’s instructions on remand. The
Appellate Court dismissed the appeal, [Appendix D].
Following several denials from the District Court for discovery I filed for summary
judgment on the light as a separate issue. The motion was denied, and the case was dismissed,
[Appendix C].
I filed an appeal which was decided in favor of the District Court, [Appendix B]. I then
filed a timely motion to reconsider the light as a separate issue which was denied, [Appendix A].
Statement Of The Case:
Addressing Questions Presented:

Page 3 of 17

1).

Whether the District Court erred when it determined that the Secretary of the Interior can

charge an amenityfee when he determines that visitors use a specific amenity.
The District Court, in its dismissal of my case, ruled that pursuant to 16 U.S.C. § 6802(g),
the Secretary of the Interior, has the authority to charge an expanded amenity fee when he
determines a visitor uses a specific amenity, saying
"Except as limited by subsection (d), the Secretary of the Interior may charge
an expanded amenity recreation fee, either in addition to an entrance fee or by
itself, at Federal recreational lands and waters under the jurisdiction of the
National Park Service or the United States Fish and Wildlife Service when the
Secretary of the Interior determines that the visitor uses a specific or
specializedfacility, equipment, or service. ” [Appendix F].
The court also cited Southern Forest Watch v. Jewell, No. 3: 13-CV-l 16, 2015 WL
1457978, at *12 (E.D. Tenn. March 30,2015) to support its decision. Southern Forest Watch v.
Jewell is a case involving fees in the Great Smoky Mountains National Park.
The Secretary of Agriculture has authority to determine fees in the National Forest. The
Secretaiy of the Interior has authority to establish fees in the National Parks, "The term
“Secretary” means—(A) the Secretary ofthe Interior, with respect to a Federal land
management agency (other than the Forest Service); and (B) the Secretary of Agriculture, with
respect to the Forest Service." [16 U.S.C.A. § 6801(10)].
Federal law prohibits the secretary of agriculture from charging visitors to park, or for
general access,
"(1) Prohibition on fees for certain activities or services, The Secretary shall
not charge any standard amenity recreation fee or expanded amenity
recreation fee for Federal recreational lands and waters administered by the
Bureau of Land Management, the Forest Service, or the Bureau of
Reclamation under this chapter for any of the following: (A) Solely for
parking, undesignated parking, or picnicking along roads or trailsides. (B)
For general access unless specifically authorized under this section." [16
U.S.C. § 6802(d)].

Page 4 of 17

Congress ordered that admission to the National Forest to be free, [16 U.S.C. §
6802(e)(2)]; [Scherer v. US. Forest Service, 653 F.3d 1241 (10th Cir. 2011)]. It is also
established that the Forest Service cannot charge a fee solely for parking [16 USCA § 6802(d)];
[Adams v. U.S. Forest Service, 671 F.3d 1138 (9th Cir. 2012)].
The Forest Service claims that Marsh Branch is classified as an expanded amenity fee site
(specifically a highly advanced boat ramp), requiring certain specific amenities not including a
light or picnic table, [16 U.S.C. § 6802(g)(B)]. Initially I argued that the site is a standard fee
area because the Forest Service charges visitors for hiking, swimming, fishing, and other
opportunities for outdoor recreation as defined in the statute detailing a standard amenity fee site,
"An area(A) that provides significant opportunities for outdoor recreation" [16 U.S.C. §
6802(f)(4)].
The Forest Service itself clearly defined what an "area" is, in relation to the statute, "a
geographic region containing the amenities and attributes listed in REA’s nine requirements."
[Sherer v. U.S. Forest Service, 727 F.Supp.2d 1080 (D. Colo. 2010)]; the court agreed with the
agency saying, "The agency’s interpretation of the term “area ” as defined by amenities and not
per site or by some other quantitative measurement is a reasonable interpretation of the
statutory provision." [id]. The District Court decision was affirmed by the Circuit Court, [Sherer
v. U.S. Forest Service, 653 F.3d 1241 (10th Cir. 2011)].
After further investigation I argued that Marsh Branch is both a standard and expanded
fee area as defined in 16 U.S.C. § 6802(g)(2). This possibility was affirmed by the Appellate
Court, "it is equally possible that the fee for Marsh Branch is both a standard amenity recreation
fee and an expanded recreation fee." [Appendix E].

Page 5 of 17

2).

Whether the District Court erred by lifting its order for planned meeting after both

parties had met andfulfilled the order, and it was filed and ifitfailed to follow the Appellate
Court instructions.
The Appellate Court remanded the case back to District Court with instructions for both
parties to have an opportunity to develop evidence regarding the fee designation of Marsh
Branch. [Appendix E]. On August 22,2018, the District Court issued an order for planned
meeting and report. Pursuant to the order I met with agency's council (Assistant U.S. Attorney
Tiffany Fleming) and we made an agreement on terms and conditions. I agreed to the report via
email and on September 21,2018 she electronically filed it in the District Court, [Appendix E,
{see order and email response}].
On September 21,2018 after the report was filed council filed a motion to have the order
for meeting and report set aside and allow them to proceed under the Administrative Procedure
Act (APA). The District Court granted the request and the report was effectively quashed and
allowed the agency to proceed under the APA. I filed several pleadings to have the original order
re-instated, but the District Court denied all requests. I argued the order contradicted the
Appellate Court instructions to allow the parties an opportunity to develop evidence and that the
agency had already filed an AR. In initial pleadings the agency filed the Declaration of Dan
Olsen, the Forest Service Handbook, and its Daniel Boone National Forest 2017 Recreation
Schedule and Fees.
The District Court admitted its order conflicted with what the Appellate Court instructed
saying, “This limited scope ofreview seemingly creates conflict with the 6th Circuit’s instruction
in this case to provide the parties an opportunity to develop evidence about the designation of
Marsh Branch. ” [Appendix E {see Dist. Crt. Doc#36, Page ID#340}].

Page 6 of 17

I filed an appeal with the 6th Circuit Court of Appeals, Appellate Courts can hear issues
from District Courts that pose a controlling question of law, 28 U.S.C.A. § 1291,1292. The
appeal was denied because it was not a final order, [Appendix D].
The District Court determined that the Forest Service had not filed its Administrative
Record (AR) in prior pleadings. Therefore, the APA would allow the agency to develop its
evidence by filing its Administrative Record. To fulfill my opportunity to develop evidence I
would be allowed to file for leave for discovery. I filed several pleadings for discovery, none of
which was challenged by the agency, but the District Court denied all of them.
In its order granting the agency’s request to vacate the order for meeting and proceed
under the APA the District Court provided its own case citation saying, “Although not
specifically referred to in the defendant’s motion, authority exists subjecting plaintiff’s FLREA
claims to the Administrative Procedure Act. ” [Appendix D{see Dist. Crt. Doc#36 Page
ID#340}]. A court should not assist an agency, “a court is not to substitute its judgmentfor that
ofthe agency” [Motor Vehicle Mfrs. Ass ’n ofU.S., Inc. v. State Farm Mut...., 463 U.S. 29 (U.S.
1983)].

3).

Whether the agency wrongfully withheld public records, and agency council acted

unethically during litigation.
At the meeting agency council advised me that I should make all requests for evidence
through her. But after having the order terminated, she advised that she would not be cooperating
any further with me regarding evidence. She said I would have to request evidence through the
Freedom Of Information Act (FOIA). I filed a FOIA request for records with the Forest Service
and that request was denied because I could not afford the $468 cost, [Appendix C,{see email

Page 7 of 17

chain}]. Information regarding who has records as well as copies of records in the possession of
the other party are to be provided without a discovery request, FRCP Rule 26. This case was not
an action for review on an administrative record, it was a civil complaint. Congress did not
intend for fees to be used to deny requests for information, "and thatfees not be used as an
obstacle to disclosure ofrequested information. ” [Eudey v. Central Intelligence Agency, 478
F.Supp. 1175 (D.C. Cir. 1979)]., “fees should not be usedfor the purpose ofdiscouraging
requests for information or as obstacles to disclosure ofrequested information ”. [Ettlinger v.
596 F.Supp. 867 (D. Massl984)]., “fees not be used as an obstacle to disclosure of
requested information. ” [Diamond v. F.B.I., 548 F.Supp. 1158 (S.D.N.Y 1982)].
During litigation, council cited 5C Wright and Miller Federal Practice and Procedure §
1380 & 1382.1 contacted her with a request for a copy of that citation because it is not found in
Westlaw or any other reliable database see email attachment. She sent a copy of §1380, but not
§1382. She also said that it would be the last time she would provide copies of information she
uses and suggested that I purchase the evidence, hire an attorney, or visit a law library,
[Appendix C,{see email}].

4).

Whether the District Court abused its discretion by denying discovery.
On remand the Appellate Court instructed that the parties would have an opportunity to

expand evidence to show the fee designation of Marsh Branch. The District Court decided to
allow the Forest Service to file its Administrative Record. To satisfy the instruction allowing me
to expand, it said I could supplement the record only if supported by the Administrative
Procedure Act. All requests for records were denied by the agency and the District Court denied
all motions for discovery.

Page 8 of 17

Under the APA discovery is not generally allowed. When an agency deliberately or
negligently withhold records discovery is appropriate, [Sierra Club v. Slater, 120 F.3d 623 (6th
Cir. 1997)]. In my case the Appellate Court found that the agency failed to provide sufficient
records, [Appendix E]. This court, has in its past, said, "ifthe reviewing court simply cannot
evaluate the challenged agency action on the basis ofthe record before it, the proper course,
except in rare circumstances, is to remand to the agencyfor additional investigation or
explanation. ” [Florida Power & Light Co. v. Lorion, 470 U.S. 729 (U.S. 1985)]. A District
Court’s refusal to supplement the record can be an abuse of discretion, ‘‘While this court has not
addressed the issue, other courts have held that “a district court’s refusal to supplement the
administrative record” is akin to “a district court’s denial ofdiscovery. ” [Sierra Club v. Slater].
The District Court allowed the agency to file more records, but those records contained
illegible copies of important records and emails. They did not include records pertaining to
criminal violations issued to visitors for parking or what fees were used to maintain hiking trails
or other amenities not related to a highly advanced boat ramp. The Appellate Court opined that
fees have no bearing on the issues to be resolved, [Appendix B]. Fees are to be spent at the
specific unit or area, “Not less than 80 percent ofthe recreationfees and site-specific agency
pass revenues collected at a specific unit or area ofa Federal land management agency shall
remain available for expenditure, withoutfurther appropriation, until expended at that unit or
area. ” [16 USCA § 6806(c)(A)]. The use of fees at a specific site or area has limitations that do
not include such things not related to the site, [16 USCA § 6807(a)]. The spending of fees is
directly related to what type of fee area it is.

5).

Whether my argument that the Forest Service must maintain the light regardless ofits fee

Page 9 of 17

designation should have been consider an amended complaint.
Early into litigation before the District Court first dismissed the case, I expressed my contention
that the light was part of the boat ramp for several years before it became a fee site. First, I
argued that the government agency had an implied contractual obligation because the light is a
permanently attached part of the boat ramp construction before fees were designated, “An
implied-in-fact contract with the government requires proof of (1) mutuality of intent, (2)
consideration, (3) an unambiguous offer and acceptance, and (4) “actual authority” on the part
of the government’s representative to bind the government in contract. ” [Hanlin v. U.S., 316
F.3d 1325 (U.S. 2003)]. However, the District Court ruled that it did not have jurisdiction to
consider the argument because it fell under contract law. Later, the Appellate Court did not rule
on the District Court's jurisdiction. After remand I discovered the agency’s Recreation Fee
Program Information (RFPI). That agency record states that fees were used to install solar lights
specifically at the Marsh Branch Boat Ramp. I made several comments on the issue as well as
mentioned my intention on filing an amended complaint after discoveyr, which was never
granted.
On March 14,20191 filed a motion for summary judgment on the light issue separate
from the picnic table, [Appendix B,{see Dist. Crt. Doc# 65-3}]. I also made the issue clear in my
reply, [Appendix B, {see Dist. Crt Doc#75}]. The District Court denied the motion and on
appeal the Appellate Court opined that I did not file a formal motion to amend my complaint,
therefore the District Court did not abuse its discretion, [Appendix B].
The Forest Service claims it does not have to maintain the light because the statute
describing a highly advanced boat ramp does not mention the light as an amenity, “Use ofhighly
developed boat launches with specializedfacilities or services such as mechanical or hydraulic

Page 10 of 17

boat lifts orfacilities, multiplane paved ramps, paved parking, restrooms and other
improvements such as boardingfloats, loading ramps, orfish cleaning stations. ” [U.S.C. §
6802(g)(B)].
REASONS FOR GRANTING THE PETITION
Based On Questions Presented
1).

Whether the District Court erred when it determined that the Secretary of the Interior can

charge an amenityfee when he determines that visitors use a specific amenity.
Legal Importance:
The District Court's claim that the Secretary of the Interior has authority in his matter is
clearly erroneous. There is no doubt the opinion creates conflict between the legal authority of
the two secretaries, and importantly, the Appellate Court failed to clarify the matter. The District
Court cites Southern Forest Watch v. Jewell as case law in its opinion, but that case is about
recreation fees in the national park, not the national forest. To allow the District Court opinion
which is based on the wrong secretary and wrong government agency would undermine
congressional intent for admission to the National Forest to be free. If Congress intended for the
Forest Service to charge the public for whatever activities it desired, there would be no statutes
separating them. The statutes clearly define the differences, and Adams v. U.S. Forest Service
and Southern Forest Watch v. Jewell are miles apart in their legal authority on the issue.
The Forest Service's claim that it is a highly advanced boat ramp while it charges a fee to
access the area around it for activities provided under a different statute is directly contradictive
to the laws that define fee classification. The Secretary of Agriculture simply cannot charge fees
for general access and parking which means that Marsh Branch cannot solely be a highly

Page 11 of 17

advanced boat ramp and legally charge visitors for accessing the general area.
The District Court provided the wrong legal authority to assist the Forest Service's
defense.
Public Importance:
The public has a constitutional right enjoy the National Forest at no cost if there is no
legal justification to say otherwise. For the government to criminalize taking a walk on a trail or
letting children skip rocks across the water is both morally and constitutionally wrong. Charging
someone for a crime and levying a fine when they are doing something legal violates their civil
rights.

2).

Whether the District Court erred by lifting its orderfor planned meeting after both

parties had met andfulfilled the order, and it wasfiled, and if itfailed to follow the Appellate
Court instructions.
Legal Importance:
An important question exists of whether the District Court correctly followed the
instructions of the Appellate Court. I have not found any direct authority that is on point with this
particular issue. Neither the District Court, Appellate Court, nor agency council, cites any law
allowing an order for meeting and report to be lifted after the parties have met and exchanged
important information.
The decision resulted in my being totally denied discovery, even after the court's
rationale that its decision appeased the Appellate Court instructions that I could expand evidence.
Therefore, the District Court failed to correctly follow the higher court order.
The Forest Service filed part of its AR the first time the case was before the District

Page 12 of 17

Court, but it was insufficient. Initially the agency filed an AR (Declaration of Dan Olsen, the
Forest Service Handbook, and its Daniel Boone National Forest 2017 Recreation Schedule and
Fees). The AR is no less the AR because it is not labeled as so. However, the District Court
allowed the agency to reset its case and submit more evidence under the APA and then deny my
ability to expand evidence through the same law.
What did the Appellate Court mean by its instructions?
Public Importance:
This is a "slippery slope" issue, especially for pro se litigants. To allow the government to
gather evidence though a court order without giving any in return, and then nullify the order is
dangerous. If this court legitimizes that behavior it could become an effective tool for
government agencies to take advantage of anyone representing him/herself. Court orders should
never become a tool to advance one party at the expense of another. When a party signs or files a
paper with the court it must not be used to cause harm to the other party, [FRCP Rule 11].
The rule does not specify whether the harm must be intentional or incidental.
During the meeting I made admissions to council that I was glad to have the meeting
because I have cognitive disabilities from a stroke and was already having problems litigating the
case. I specifically said that I did not know if I could have completed the process without the
meeting. I revealed everything about my strategy and my weaknesses. I informed her that the
Forest Service was refusing to provide public records about Marsh Branch which I had
requested. She then informed me that would have to request evidence directly from her in the
future. I passionately believed the meeting was legitimate and ethical.
Allowing the government to use a court order to advance its case in this manner will lead
to public harm in future cases. Furthermore, allowing the government to submit evidence as

Page 13 of 17

needed throughout a case and forbid the other party to gather its evidence gives the government
an unfair and unjust advantage.
This court should not afford a District Court helping an agency with proper authority to
help advance its case as it did by citing Motor Vehicle Mfrs. Ass ’n ofU.S., Inc. v. State Farm
Mut...., then refuse to accept pleadings made by a pro se litigant.

3).

Whether the agency wrongfully withheld public records and agency council acted

unethically by withholding evidence used during litigation.
Legal Importance:
If the agency had released the records, there would have been no need for discovery
because all records related to the case are in the possession of the agency. The agency never
provided any reason other than payment for its refusal to release the evidence. Appellate Courts
in other circuits have determined that fee should not be used to deny releasing records. The
records were important to show the Forest Service operates Marsh Branch as a
standard/expanded fee site by spending revenue on amenities associated to both designations and
issuing criminal violations to visitors who do not use the boat ramp or its amenities.
I cannot find legal authority to argue that council broke a rule of law by not providing
copies of inaccessible material used in pleading in District Court. It is however a rule to provide
that material in the Appellate Court, [CTA6 Rule 32.1].
Public Importance:
Allowing government agencies to use fees to deny records in civil cases will be prejudice
to indigent litigants. It draws a line between those who file impoverish and those who have the
financial resources to buy evidence. This is especially true when the agency has those records in

Page 14 of 17

their possession 9nd does not cite any other reason for denial.
Allowing a U.S. Attorney to use authority in a pleading that is unavailable in the public
domain without giving a copy to the pro-se party is another "slippery slope " issue. Someone with
vast resources like the government could complicate a case with legal documents that the pro se
would never find. It is especially true when those resources are paid for with public money.

4).

Whether the District Court abused its discretion by denying discovery.

Legal Importance:
By denying discovery after terminating the planned meeting and report the District Court
abused its discretion. In effect it nullified the Appellate Court’s decision. When a District Court
understands that its decision is conflicting with a higher court order it should take all steps
possible to ensure that both parties are treated fairly.
The Appellate Court’s opinion that fees are not relevant to the issue on remand is
incorrect. If congress intended for fees to be spent on anything the agency chooses it would not
have used language such as "shall be used only for" [16 USCA § 6807(a)(3)].
A highly advanced boat ramp has specific amenities and congress intended for those fees
to be spent on those units. If the agency is spending fee revenue on the area around the boat ramp
it is operating as a standard fee area. Otherwise it can operate contrarily to what congress said.
This question has not been answered and is relevant to the true designation of Marsh Branch.
Public Importance:
It is important that future litigants are not denied discovery by a District Court after a
higher court has recognized and decided that further discovery is needed. This is especially
important to other pro se litigants.

Page 15 of 17
It is also important to the public that their fee money is spent correctly. If they pay for
specific amenities their money should be spent on those amenities. If their money pays for a light
at the ramp, then that light should be maintained.

5).

Whether my argument that the Forest Service must maintain the light regardless of its fee

designation should have been consider an amended complaint
Legal Importance:
A formal amended complaint does not have to be filed as an amended complaint, “Issues,
which are not raised by the pleadings, but which are tried by parties ’ express or implied consent,
shall be treated as if they had been raised in the pleadings, ” Hasselbrink v. Speelman, 246 F.2d
34 (6th Cir. 1957)]; “Fed.R.Civ.Pro. 15(b) states that issues tried by the express or implied
consent of the parties shall be treated in all respects as ifthey had been raised in the pleadings. ”
[Carlyle v. U.S., Dept, of the Army, 674 F.2d 554 (6th Cir. 1982)],

“F.R. 15(b) provides that ‘when issues not raised by the pleadings are tried by
express or implied consent of the parties, they shall be treated in all respects
as if they had been raised in the pleadings. ’ This is mandatory, not merely
permissive. The rule then provides for free or delayed amendment, but states
that failure so to amend does not affect the result of the trial of these issues. ’
Indeed, formal amendment is needed only when evidence is objected to at trial
as not within the scope of the pleadings. ” [Securities and Exchange
Commission v. Rapp, 304 F.2d 786 (2nd Cir. 1962)].
“It is too late in the day and entirely contrary to the spirit of the Federal Rules
of Civil Procedure for decisions on the merits to be avoided on the basis of
such mere technicalities. ‘The Federal Rules reject the approach that pleading
is a game of skill in which one misstep by counsel may be decisive to the
outcome and accept the principle that the purpose ofpleading is to facilitate a
proper decision on the merits. [Foman v. Davis, 371 U.S. 178 (U.S. 1962)].
This issue raises another serious legal question. Does the lack of specific language in 16
USCA § 6802(g)(B) to maintain a safety feature relieve the agency from any obligation to do so?

Page 16 of 17
If it does, the rule will apply to other statutes as well. Safety cables holding the floats would not
have to be replaced. Smoke detectors in government facilities would not have to be replaced.
Flotation devises on their rental boats would not have to be replaced. The possibilities are
numerous.
The light is and has been a permanent part of the boat ramp since its construction. It is
needed to safely launch and retrieve boats in the dark. That is exactly why it was built onto the
ramp. It is not an amenity because it is already part of an amenity; the ramp itself. To allow the
Forest Service to disregard its obligation to maintain safety because a statute does not expressly
mention it presents a dangerous precedent.
It would be utterly ridiculous to think that congress left out specific language to replace
safety devises that are attached to amenity items because it did not think the agency should
maintain them. They could not have foreseen any agency making such a preposterous claim.
Public Importance:
Public safety is at risk if this court allows the government to neglect its responsibility to
safety because no specific statute exists to require otherwise.
CONCLUSION
Based on the aforementioned questions of law, their legal significance, and public
importance, this court should comment and remand the case back to the lower courts for further
consideration.
Submitted by Larry Bailey
181 Ben Bailey Road
London Kentucky, 40744

